No. 20-7295

IN THE
SUPREME COURT OF UNITED STATES

Isidro Sauceda, Petitioner,
v.
David Shinn, Director of Arizona Department of Corrections, and the
Attorney General of the State of Arizona, Respondents
On Petition For Writ Of Certiorari
To The Ninth Circuit Court of Appeals
CERTIFICATE OF COUNSEL

As counsel for the petitioner, I hereby certify that this petition for
rehearing is presented in good faith and not for delay and is restricted
to the grounds specified in Rule 44.2.

Sandra Slaton, Esq.

16

CERTIFICATE OF COMPLIANCE
I, Sandra Slaton, do certify that the foregoing document complies
with Rule 44.2 and Rule 33.1. The foregoing document contains 2,884
words pursuant to Microsoft Word 365. The word count is less than the
3,000 words permitted. The foregoing document is also in Century
Schoolbook, double spaced, and font size of 14 point.
Dated: May 14, 2021.

By:
Sandra Slaton, Counsel of Record
HORNE SLATON, PLLC
6720 N. Scottsdale Road, Suite 285
Scottsdale, Arizona 85253
Tel: (480) 518-2154
Fax: (480) 367-0691
slaton@horne slaton. corn
On behalf of Petitioner, Isidro Sauceda

17

